<html>
<title> - OVERSIGHT OF THE ARCHITECT OF THE CAPITOL'S HUMAN RESOURCES POLICIES</title>
<body><pre>[Senate Hearing 115-614]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-614

                   OVERSIGHT OF THE ARCHITECT OF THE
                   CAPITOL'S HUMAN RESOURCES POLICIES

=======================================================================

                                HEARING

                               before the

                 COMMITTEE ON RULES AND ADMINISTRATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 6, 2018

                               __________

    Printed for the use of the Committee on Rules and Administration








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











                   Available on http://www.govinfo.gov 
                   
                   
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
35-239                    WASHINGTON : 2019                 
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                 COMMITTEE ON RULES AND ADMINISTRATION

                             SECOND SESSION

                     ROY BLUNT, Missouri, Chairman

MITCH McCONNELL, Kentucky            AMY KLOBUCHAR, Minnesota
LAMAR ALEXANDER, Tennessee           DIANNE FEINSTEIN, California
PAT ROBERTS, Kansas                  CHARLES E. SCHUMER, New York
RICHARD SHELBY, Alabama              RICHARD J. DURBIN, Illinois
TED CRUZ, Texas                      TOM UDALL, New Mexico
SHELLEY MOORE CAPITO, West Virginia  MARK R. WARNER, Virginia
ROGER WICKER, Mississippi            PATRICK J. LEAHY, Vermont
DEB FISCHER, Nebraska                ANGUS S. KING, JR., Maine
CINDY HYDE-SMITH, Mississippi        CATHERINE CORTEZ MASTO, Nevada

                   Fitzhugh Elder IV, Staff Director
              Elizabeth Peluso, Democratic Staff Director 
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                  Pages

                         Opening Statement of:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri.......................................................     1
Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota...     2
Statement of Christine Merdon, Acting Architect of The Capitol, 
  Washington, DC.................................................     3

                        Prepared Statements of:

Christine Merdon, Acting Architect of the Capitol, Washington, DC    17

                  Questions Submitted for the Record:

Hon. Roy Blunt, a U.S. Senator from Missouri to Christine Merdon, 
  Acting Architect of the Capitol, Washington, DC................    21

 
  OVERSIGHT OF THE ARCHITECT OF THE CAPITOL'S HUMAN RESOURCES POLICIES

                              ----------                              


                       THURSDAY, DECEMBER 6, 2018

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:07 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. Roy Blunt, 
Chairman of the committee, presiding.
    Present: Senators Blunt, Capito, Wicker, Fischer, 
Klobuchar, Cortez Masto.

  OPENING STATEMENT OF HONORABLE ROY BLUNT, CHAIRMAN, A U.S. 
               SENATOR FROM THE STATE OF MISSOURI

    Chairman Blunt. Well, good morning.
    We have a couple of other members coming, but it does not 
get in the way of what we want to do. While my opening remarks 
are riveting, I wanted them to be--to have as many people here, 
Christine, to hear your opening remarks and that is what we 
have been waiting on. But we are pleased to have you with us 
today, Christine Merdon, the Acting Architect of the Capitol, 
testifying on behalf of the Architect of the Capitol.
    But before I say anything more, I would like to recognize 
the great work that the staff did over the last few days, 
getting ready for and doing a great job, administering and 
everything that had to be done with President Bush lying in 
state--Mark Reed, the Superintendent of the Capitol, Takis 
Tzamaras, the Superintendent of the Senate side of building. 
Particularly, I want to be mentioning the work you and your 
team did. It was well handled and, you know, the big things, I 
think, that we do here do not seem to cause some of the 
questions maybe of just not asking enough things over a long 
period of time about the other things that we do.
    This is the first of the series of hearings we intend to 
have in the next 2 years, particularly with the organizations 
like the Smithsonian, and the Library of the Congress, and the 
Copyright Office, that this committee has jurisdiction over. We 
are going to start today with the Architect of the Capitol. 
This is an agency that really covers a lot of ground--in fact, 
270 acres of ground. The Architect of the Capitol team is 
responsible for 18.4 million square feet of buildings that the 
AOC is entrusted to operate and maintain as a place of business 
for the legislative branch and really a destination for 
millions of people each year.
    I look forward to discussing the work and management of the 
AOC as we strive to ensure the Capitol and the campus are safe, 
secure, efficient, and welcoming. I am pleased to be joined by 
my colleague and Ranking Member, Senator Klobuchar. Senator 
Klobuchar, if you have some opening remarks, I will let you do 
that and then we will turn to Acting Architect of the Capitol 
Merdon.

 OPENING STATEMENT OF HONORABLE AMY KLOBUCHAR, A UNITED STATES 
              SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Okay, thank you very much, appreciate 
it.
    The United States Capitol, as we all know, is one of the 
most iconic buildings in the world. Ensuring that this building 
and all the buildings surrounding it are adequately maintained 
is not only important to the people that work here, but also to 
American history. As Acting Architect of the Capitol, you, Ms. 
Merdon and your staff are responsible for facilities 
maintenance as well as the operation of the U.S. Capitol, House 
and Senate office buildings, Library of Congress, U.S. Supreme 
Court building, and many other offsite facilities.
    In case anyone is counting, that adds up to exactly 18.4 
million square feet of building space and more than 570 acres 
of land. The AOC is doing a lot more than keeping the lights on 
and a lot of this is also protecting our National Treasures, 
preserving the historic integrity of the Capitol, and it 
requires a workforce with a unique skill set. There are many 
employees that I think people would be surprised that we need, 
but when you look at the fine paintings, we need painters when 
they need to be repaired or touched up.
    I want to thank you for what you are doing and mention that 
all of the employees that work in your operation are very 
important. We look forward to hearing from you and learning 
what you are doing to implement the policies that best serve 
the AOC staff and the Capitol.
    Thank you.
    Chairman Blunt. Thank you, Senator Klobuchar.
    Well, after the 11th Architect of the Capitol, Stephen 
Ayers, retired in November, his Deputy became the Acting 
Architect of the Capitol, Christine Merdon, is really well 
prepared for that. In addition to her new role as the Acting 
Architect of the Capitol, she retains her current position as 
Deputy Architect and Chief Operating Officer, a position that 
she has held since 2010.
    Prior to joining the AOC in 2010, Ms. Merdon worked in 
private industry as a Project Manager and eventually became the 
Senior Vice-President of Program and Construction Management, 
working on contracts in Washington, DC, Chicago, Illinois, and 
Los Angeles, California. She has been responsible for the 
successful program and construction management of more than $11 
billion dollars in major project, construction efforts--
Washington National Major League Baseball Stadium, O'Hare 
Airport Modernization Program, the Los Angeles Unified School 
District, the Martin Luther King, Jr. National Memorial, the 
Smithsonian Institute for the National Museum of African 
American History, the Abraham Lincoln and Thomas Jefferson 
Memorial renovations. You come to this with a great background 
of understanding all the things that need to be done. What you 
have done with projects at the White House and Camp David, also 
an impressive part of what you bring to the role as the Acting 
Architect of the Capitol.
    You know, we are beginning that process of selecting who 
will be the next Architect of the Capitol and frankly, in that 
interim period of time, hopefully with the cooperation of this 
committee--you are in a great position, now that you are Acting 
you are no longer the Deputy, to look at the things that need 
to be done, that are obvious in their need to be done and to 
make as much headway in those issues as we can, between now and 
the time someone becomes the permanent 12th Architect of the 
Capitol.
    Ms. Merdon, we are glad you are here. I would like to 
recognize you for an opening statement and then we will follow 
that with questions.

OPENING STATEMENT OF CHRISTINE MERDON, ACTING ARCHITECT OF THE 
                    CAPITOL, WASHINGTON, DC

    Ms. Merdon. Thank you, Chairman Blunt. Thank you Ranking 
Member Klobuchar.
    I appreciate you recognizing the great work that the 
Architect of the Capitol team did this week in honoring late 
President George Bush. It is a pleasure to see you again 
Chairman Blunt and I thank you for taking time out of your busy 
schedule to attend the freedom award ceremony, which honored 
the AOC employees as well as the CVC's 10th Anniversary 
Ceremony. Your participation in both events meant a great deal 
to me and to members of our team. My daughter also appreciated 
your kind and generous words--from one parent to another, thank 
you.
    Chairman Blunt, Ranking Member Klobuchar and members of the 
committee, I appreciate the opportunity to appear before you 
this morning in my new role as Acting Architect of the Capitol.
    During my time at the Architect of the Capitol, we have had 
some amazing successes--the restoration of the Dome, Grant 
Memorial, Russell Courtyard, Brumidi Corridors and much, much 
more. Those successes have paved the way for even greater 
responsibilities for our agency. We have acquired and now 
manage additional office space. We are building an expanded 
campus on Fort Meade for the growing library collection and we 
will add the Thurgood Marshall Building to our portfolio by 
2024. Furthermore, we are exploring opportunities to better 
serve the space and support needs of the Senate.
    In my new role, I am learning even more about the needs of 
the agency, the needs of Congress and the overall Capitol 
campus. Let me be clear sir, I truly care about the protection 
of the people of our agency, our colleagues throughout the 
legislative branch and constituents from across this great 
nation. With your input, I plan to lean on my previous 
leadership of iconic national design and construction projects, 
to ensure a safe and secure Capitol campus.
    At the request of the committee, today I am going to focus 
on our most valuable agency asset, the people of the AOC. The 
AOC has some of the most talented and widely admired craftsmen, 
tradesmen, artists, architects, engineers and scholars. Our 
work touches almost every person in the Nation in one way or 
another--whether it is through a visit to a Member of 
Congress's office in Washington, DC, submitting research 
questions to our agency online, viewing our facilities as 
backdrops on the evening news, touring our grounds and 
arboretum and participating in one of our educational 
programs--our team does a good job of providing service and 
support that Congress and the Supreme Court needs. But there 
are areas that we need to improve.
    Every 2 years, our agency voluntarily participates in the 
Federal Employee Viewpoint Survey, FEVS, administered by the 
Office of Personnel Management. We use these results to measure 
staff satisfaction. We are busy analyzing the results and 
feedback, but in general, we are committed to continued 
progress on accountability as well as fairness in recognition, 
advancement and hiring. I look forward to reviewing the final 
analysis of FEVS with the committee later this month.
    Over the years, we have earned a well-deserved reputation 
as an agency that ``can-do.'' We have taken on new 
responsibilities and are committed to meeting ever-increasing 
workloads. I appreciate the committee's interest in our efforts 
to attract, empower and retain the very best public servants to 
support the needs of Congress and the Supreme Court so that we 
can fulfill our legislatively mandated duties.
    Thank you again for the opportunity to appear before the 
committee. I am happy to answer any questions you may have.
    [The prepared statement of Ms. Merdon was submitted for the 
record.]
    Chairman Blunt. Well, thank you again.
    I am glad you are here, and you are incredibly well 
prepared to step into the top job of the responsibilities of 
the Architect of the Capitol. Also, after 8 years of the other 
job, I think you really have, again let me say it, a great 
opportunity to look at what maybe did not become the priority. 
Part of that may be the lack of insistence in the Congress that 
we have the kind of partnership we need to have.
    You know, in things like, this week there was a 
Presidential executive order about when offices were going to 
be open. That really is not the directive that the Architect of 
the Capitol should follow, I think. You should wait, in my 
view, and decide what the Congress is going to do and that 
should be more of a determination of what the Architect of the 
Capitol does than what somebody at the White House says is the 
determination for Federal employees. You know, this is a 
different responsibility. I think it is a more significant 
reporting responsibility, maybe, than the Congress, and the 
Senate has asserted in the past. But I would like to help you 
make this interim period as meaningful as it can be, in terms 
of getting ready for whoever comes next.
    I have some questions about just the human resources--the 
manual. I am not sure there is one. We have not been able to 
find one. I know there are references to pages in a manual that 
when you ask to see the manual, the manual appears not to be 
available to look at page 757, or whatever other page might be 
referred. What is the status of the personnel manual, and what 
do you think we need to do to meet that requirement--that you 
have one that is available, not just to the Congress, but more 
importantly to all of the employees of the Architect of the 
Capitol?
    Ms. Merdon. Thank you, sir. Thank you very much for your 
question on the Human Resources manual.
    Our employees, as I mentioned, are our most important 
asset. In 1994, as a result of the Congressional Accountability 
Act, there was a requirement for the AOC to create a Human 
Resources manual and that was created. We did meet all the 
requirements of the Human Resources manual, at that time. Over 
time, the manual has been replaced with policies. The policies 
actually allow us to have more rigor than a manual will, in 
executing and administering the human resources. So the----
    Chairman Blunt. Let me be sure I have that correct. Was 
there a requirement to have a manual in 1994?
    Ms. Merdon. There was a requirement, and we met that but 
over time we have transitioned----
    Chairman Blunt. Has that requirement ever been eliminated? 
That you are no longer supposed to have a manual, you are now 
supposed to have policies?
    Ms. Merdon. It has never been eliminated, but we consider 
our collection of over 50 policies to be the manual now. That 
is available online for all of our employees.
    Chairman Blunt. Is the manual itself, that the policies 
reference, available for all your employees?
    Ms. Merdon. Yes. The manual is the policies--they are the 
policies.
    Chairman Blunt. There are, no manual any longer, there are 
50 policies?
    Ms. Merdon. Correct. That constitutes our manual now.
    Chairman Blunt. Do any of those 50 policies reference a 
manual?
    Ms. Merdon. That is a possibility, and we have an 
opportunity to correct that. To go through those policies to 
ensure that all the appropriate references--you have previously 
met Theresa Bailey, my Chief Human Capitol Officer, and we will 
ask her. She has actually started looking at our policies to 
ensure that, number one, any changes are needed, and any of 
those references are reduced, or eliminated.
    Chairman Blunt. Well, I think this is probably going to--we 
are going to have to have more discussion about this but it 
sounds like you are prepared to have that discussion. On the 
employees themselves, do you loan employees from like the 
Senate jurisdiction to the House jurisdiction?
    Ms. Merdon. Sir we have our opportunities. They are 
available through our Architects Mobility Program for their 
development opportunities, to send employees from one 
jurisdiction to another. One example of this is, we had a 
Supreme Court gardener who wanted to learn more about 
horticulture, so we sent that person, as part of the Mobility 
and Advancement Program, to the botanic garden----
    Chairman Blunt. Okay, I am running out of time. Let me ask 
a question----
    Ms. Merdon. Sure.
    Chairman Blunt.--specifically here. I mean this is the 
Senate oversight committee, the Senate Rules committee, so we 
should have particular interest in the Senate. Senator Capito 
used to chair the legislative branch Appropriations Committee, 
and she and I are both still on the Appropriations Committee. 
If there are a number of--are there a number of employees that 
you say to the Congress, these are the number of employees we 
need for the Senate side of the building?
    Ms. Merdon. Yes, sir.
    Chairman Blunt. Are they all still working on the Senate 
side of the building?
    Ms. Merdon. We have, I think, one or two detailed, as far 
as the Development Program, detailed over to planning a project 
management. He was a floor care refinisher who was a nighttime 
worker and he achieved his Architect Degree during the day. We 
have him working in Planning and Project Management as a 
training program. We have, on a very minimal use and all in 
accordance with Appropriations law but very, very minimal--
probably single digits--that other employees go to different 
jurisdictions for a small period of time. Some of those are 
development-training opportunities, as this one floor care 
refinisher, and we may have an opportunity for somebody to be 
over at another jurisdiction--but it is only for several weeks, 
and that jurisdiction pays for that employee. We make sure that 
does not harm the work from the jurisdiction were it comes 
from.
    Chairman Blunt. There are not employees we would anticipate 
in the number of employees available, that would be available 
to the Senate Superintendent that are not--this is not 
information I have from the Senate Superintendent. He is 
sitting right behind you. I am giving you an example. There are 
not employees who we believe would be available to the Senate 
Superintendent, that those positions have effectively been 
transferred to the House side of the building without any sign 
off from either the appropriating or the oversight committee?
    Ms. Merdon. Not--there are--currently I do not believe 
there is anybody in the House. We did have a need for a 
painter, occasionally was searched, but those are very 
temporary. To my understanding, the oversight or appropriations 
does not sign off on it, but we are required to notify you now 
when that happens.
    Chairman Blunt. There is probably time for a second round 
of questions. We do have a vote at noon, so that is probably 
good news if you are the witness. But, we will try to move 
along here.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much. Thank you. Since 
2010 you have served as Deputy Architect of the Capitol, as we 
talked about. What are your top priorities as the Acting 
Architect in the coming months as we work to appoint a new 
Architect and what are the biggest opportunities you see in the 
short term for improvement, and then maybe in long term?
    Ms. Merdon. Thank you very much for asking that question, 
Senator. My top three priorities are people, projects and 
preservation--taking care of our people at the Architect of the 
Capitol. I have some of the best, most talented tradesmen, 
craftsmen, engineers as I mentioned here. Projects--we have 
quite a workload of projects and making sure that we are 
executing them on time and under budget, is a priority--and 
also making sure with preservation that we preserve these 
treasures for us, for our grandchildren and our great-
grandchildren. Those are my two top--three top priorities. I 
think we have some opportunity in some of our--we just received 
our FEVS survey. I think that gives us a lot of opportunity to 
say where can we make improvements, and I am looking forward to 
meeting with your staff to discuss those opportunities.
    Senator Klobuchar. Okay, thank you. What--since you have 
taken over as Acting Architect, in the short period of time you 
have proposed some changes to personnel structure, including 
the addition of new senior level positions. Why do you think 
these are necessary, and why should they be done now instead of 
when a new Architect comes in?
    Ms. Merdon. Thank you for the question ma'am. The last--it 
took several years to get a new Architect last time, but I 
commend your staffs in working very diligently and hard. I 
understand they are moving very fast and I think that is great. 
I think we are facing challenges in the agency. We have more 
buildings. We are doubling the size of Fort Meade in the next 
few years with the different modules that are coming. We have 
expanding role, expanding campus. As I mentioned, in 2024, the 
Thurgood Marshall, which is a judicial building, will become 
ours. I think being able to address those challenges and ensure 
accountability, having a need for more people to provide that 
accountability. The Chief Operating Officer's direct reports go 
from 14 to 17.
    Senator Klobuchar. Okay. It has been more than 2 years 
since the Department of Labor determined that Restaurant 
Associates owed more than a million in unpaid wages to workers. 
Since then, the Senate's Superintendent Office has implemented 
a number of initiatives that are designed to ensure that 
Restaurant Associates complies with the Service Contract Act 
and other wage and labor laws. Do you commit to continuing the 
procedures in place to ensure workers are paid the wages they 
earn and will you commit to closely monitor wage and other data 
to ensure compliance?
    Ms. Merdon. Thank you very much for that question. I worked 
very closely with Senator Blunt's staff at the renewal of that 
contract, and I think they did a wonderful job. It was a 
pleasure to work with----
    Senator Klobuchar. You can say yes or no, because then----
    Ms. Merdon. Yes, yes.
    Senator Klobuchar. Okay, great. Like many Federal 
employers, the AOC hires annuitance, who are retired Federal 
employees covered by Federal retirement plans. AOC policy 
states that rehired annuitants can only be reemployed for 13 
months at a time. As part of their reemployment, their pay is 
reduced by the amount of retirement annuity they receive. 
However, rehired annuitants can be granted a waiver that allows 
them to receive a full salary in addition to their retirement 
annuity. The waiver is only supposed to be used in emergency 
circumstances, as you know. Data provided to our committee 
indicates that many rehired employees stay beyond their allowed 
13-month terms. 5 out of 11 employees under reemployed 
annuitance status have served for 7 years or more. Can you 
explain the AOC's use of rehired annuitants and discuss what 
effect you think it has on employees seeking to be promoted 
within the agency? I guess you could add to this later, how 
many have received a waiver to be paid a full salary in 
addition to their retirement annuity?
    Ms. Merdon. We use rehired annuitance for emergency 
situations. Also for their institutional knowledge or if there 
is a risk to the agency if a loss of information--so we take a 
look at all those before we make a decision on a rehired 
annuitant. In 2015--I understand your concerns--we looked at 
the Rehired Annuitant Program because we had rehired annuitance 
on there for many, many years and that is when we instituted 
the temporary employee, part of that rehired annuitants. I do 
believe that there is opportunity to strengthen that, rehired 
annuitance, as well as take a look at our better succession 
planning for the agency. I am committed to do that in the 
interim because I think that is an opportunity for employee----
    Senator Klobuchar. So it is a 7 year emergency? It just 
seems like you could maybe develop an employee within the 
agency to take something over instead of saying there is a 7-
year emergency related to a certain position.
    Ms. Merdon. Yes, ma'am. I agree, but as you noted, some of 
the employees are permanent and some of them are temporary. 
During the transition in 2015, if they were a permanent 
employee, it would have been an adverse action to convert them 
to a temporary employee. That is why a number of them are 
permanent. But I agree with you fully. There is opportunity to 
make changes and better succession planning.
    Senator Klobuchar. Okay, thank you.
    Chairman Blunt. Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Mr. Chairman, Ranking 
Member. I understand that you have 2,300 individuals working 
for you, is that FTE's?
    Ms. Merdon. Yes, ma'am.
    Senator Cortez Masto. Okay. How many of those--and I may be 
wrong, just looking at the numbers that I have seen. Senator 
Klobuchar was talking about annuitants--I count 68, is that 
about right?
    Ms. Merdon. 11.
    Senator Cortez Masto. There are only 11 annuitants working 
for you right now?
    Ms. Merdon. Correct.
    Senator Cortez Masto. Okay. Of the 2,300 FTEs--how many, 
actually, positions do you have that are vacant right now?
    Ms. Merdon. I would have to get back to you on that ma'am. 
Ma'am I do not know the absolute answer at this time.
    Senator Cortez Masto. Okay. I am a big proponent of 
diversity. I think our government should mirror, in our 
workforce, the diversity we see in our community. Can you talk 
a little bit about maybe what you are doing in the recruitment 
and hiring when it comes diversity and diversity programs 
within the AOC?
    Ms. Merdon. Thank you. I appreciate it very much. Ma'am, 
diversity is also very, very important to me. It is very 
important to the agency. In the hiring, we ensure that we 
advertise the positions on USA jobs, but we also reach out to 
other organizations such as the National Society of Black 
Engineers, Women and Construction, to make sure that they are 
notified of the positions too.
    Senator Cortez Masto. Okay, thank you. Can I jump back just 
to your positions. Again, I noticed, it looks like in Fiscal 
Year `18 your budget was about $712 million. In Fiscal Year 
`19, we have $733 million, how much of that is actual salaries 
and benefits?
    Ms. Merdon. I am going to have to get to you the exact 
number, but I know our Line Item Construction Program is about 
250.
    Senator Cortez Masto. Okay. If you could break down for 
me--and we will pull that, and we will work with you--I am 
curious about the budget and the break down----
    Ms. Merdon. Sure.
    Senator Cortez Masto. How much goes to Capitol projects. 
How much goes to staff. Traditionally, I am just familiar with 
the budget, most of it goes to salaries and benefits----
    Ms. Merdon. Yes, ma'am.
    Senator Cortez Masto.--that is the nature of how we get 
things done in our Government. With respect to the diversity 
piece of it, besides diversity, what type of developmental 
programs do you have for employees to work on, to improve, to 
be able to promote, to be able to learn new skills throughout 
the Capitol?
    Ms. Merdon. I appreciate the questions because I think 
training is very important. We like to grow people in the 
Architect of the Capitol. From a wage-grades perspective, say a 
labor position, we have the AMP Program, Architects Mobility 
Program, and ExCEL Program where employees can be detailed to 
other organizations, or within their own organization for a 
short period of time so they can have more exposure to a trade. 
AMP Program we are actually--is more of an apprentice program. 
As I mentioned before, we have taken an employee here. She was 
an AMP employee, and she became the first female mason that we 
have--now she works for the Library of Congress. We also have 
required training as with safety. All of our employees are 
required to have training. We have a standard training. We have 
career coaching, that we have for our employees and our HCMD, 
our Human Capital organization, and we also have leadership 
training. We partner with the Fellows Program, the Government's 
Fellows Program, and send our future leaders to that program. 
We are looking at various levels of training and development.
    Senator Cortez Masto. Then, can you address sexual 
harassment in the workforce and how you address the need for 
training, and to stop it and prevent that from happening?
    Ms. Merdon. Absolutely. We take that training, prevention 
of sexual harassment, very seriously. In the last couple of 
years, we have moved from offering the training every other 
year to every year, and 100 percent of our employees are 
trained on the prevention of sexual harassment.
    Senator Cortez Masto. Okay. Then I am also curious about 
the annuitants and long-term. I completely understand that 
sometimes when you lose a position, a person in a position--
they are uniquely qualified. They have the only area of 
expertise so you want to keep them on for a short period of 
time, but beyond that 13-month then you have got to question, 
what is going with your succession planning and your capacity 
building for the future?
    Ms. Merdon. Yes, ma'am. I agree.
    Senator Cortez Masto. Whenever you are providing a 
background, I would be curious to see that as well, and how you 
are addressing that.
    Ms. Merdon. We will be pleased to do that.
    Senator Cortez Masto. Okay.
    Ms. Merdon. Thank you, ma'am.
    Senator Cortez Masto. Then a little bit--I know you know 
this and you were talking about the food service workers here 
and restaurants that we have. Unfortunately, there was a 
Presidential directive terminating Temporary Protective Status 
and a number of the employees that I have met here that work in 
our restaurants and food service, some of them have TPS and 
have concerns. Are you aware of that, and what are you doing, 
if anything, to alleviate, or work with them, or talk with them 
about their concerns every day?
    Ms. Merdon. We work very closely with the employees, and we 
work with the contractor Restaurant Associates, but I will be 
committed to doing a deeper dive on that request and looking at 
the employees concerns.
    Senator Cortez Masto. Okay, thank you. I noticed my time is 
up. Thank you, Mr. Chairman.
    Chairman Blunt. Thank you. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Thank you for being here and thank you for your service to 
the Architect or to the Capitol in general and our community--I 
appreciate that. I want to build on something that Senator 
Cortez Masto brought forward. She asked about sexual 
harassment. I think all the four of us who are in here, the 
Senators here, have worked on legislation that would improve 
the process for dealing with sexual harassment or harassment in 
general. But according to the OOC, which is the Office of 
Compliance, of the 47 newly filed requests for counseling that 
arrived in that office, 21 of those, or 45 percent of those, 
where from AOC employees--I am sure you are aware of this. Not 
all of these were workplace harassment. They were--some were 
for alleged violations of other provisions of the Congressional 
Accountability Act. Since Fiscal Year 2013, more new OOC 
filings have come from the AOC employees than from any other 
legislative branch. I was wondering how you can explain that. 
You sort of answered a little bit in the question moving 
forward in terms of training, is this--I am certain it is a red 
flag for you--how are you addressing this?
    Ms. Merdon. Thank you for the question Senator Capito. It 
is a concern for us, and one of the reasons we began the 
training every year, in lieu of every other year, was to focus 
on eliminating that. We also encourage our employees. If they 
are not getting something resolved in their own organization, 
we have avenues of assistance. Avenues of assistance are DIDR, 
Diversity Inclusion Dispute Resolution, is one of them. The 
Office of Compliance is another avenue that we encourage 
people, if they are not getting resolution. But we encourage 
them to work through us first--but if they choose to go to the 
Office of Compliance. We also are looking--we met recently, 
about 2 months ago, with the Office of Compliance to start 
discussions about how we can even do better, and we are 
committed to starting an anonymous hotline at the beginning of 
the year, so our employees have a safe, anonymous place to go 
to report harassment.
    Senator Capito. You are going to be doing that?
    Ms. Merdon. Yes, ma'am.
    Senator Capito. Within your agency?
    Ms. Merdon. Yes, ma'am.
    Senator Capito. Let me ask you just quickly, what kind of 
turnover do you have with the 2,300 employees' Do people come 
and stay?
    Ms. Merdon. Our employees do come and stay. I'll have to 
get back to you----
    Senator Capito. Well, just generally----
    Ms. Merdon. I mean we just celebrated our employees who 
have stayed 20, 25 years. We even had an employee that has been 
here for 45 years----
    Senator Capito. Right.
    Ms. Merdon That is not uncommon. Our employees do stay. 
They like working here. They like the agency.
    Senator Capito. Well, yes. I mean the ones that I have had 
the privilege of meeting have been, a lot of them, a long time. 
I want to thank them because they do a lot of great work around 
the--around this--within your purview. Another question, I was 
the appropriator for the legislative branch. One of the things 
that really used to get under my skin, and I think the former 
Architect of the Capitol knows this, is the Reprogramming 
Request, where you would come to me, that we want to reprogram 
$7 million dollars for another project. Are you working to 
eliminate the Reprogramming Request because to me, I view it as 
a kind of a duck-and-cover on the budgeting process--in other 
words, I am going to go heavy on this part, maybe it is 
employees or something else, when I know I might need it over 
here. What would your response be? Are you doing Reprogramming 
Requests this year or have you done them last year, last 
summer, as we were moving into the end of the fiscal year?
    Ms. Merdon. I would like to get back to you on that. I know 
we do Reprogramming Requests but I think we--by increasing 
accountability about how we spend our money in the 
jurisdictions, to ensure they are spending the money 
appropriately, we can reduce the reprogramming.
    Senator Capito. I would encourage that because, again, I 
think it is a bit of a duck-and-cover. The other question that 
I wanted to ask was, when I was legislating, when I was head of 
the legislative branch Appropriations, you were just embarking 
on the Russell renovation. I would like to have--can you give 
me a little bit of the status report on that. The garage and 
also, I know the scaffolding has been taken down on the Union 
Station side, which is my side----
    [Laughter.]
    Senator Capito But where are we moving on that?
    Ms. Merdon. Thank you and I am sure you're glad the 
scaffolding----
    Senator Capito. Yes, I am glad.
    [Laughter.]
    Senator Capito. I can finally see the daylight. It is 
wonderful.
    Ms. Merdon. Thank you. The first phase has been completed 
and we are starting the second phase----
    Senator Capito. Which--what second phase? Is it other sides 
of the building?
    Ms. Merdon. Yes. They are beginning the scaffolding on that 
phase. Regarding the Senate underground garage, if you do not 
mind, I would be happy to get back to you on the update of 
the----
    Senator Capito. Yes, and I believe that includes the Plaza 
that is over top of the garage as well. I think the repair that 
is doing on that, on the Russell garage, had not been repaired 
for----
    Ms. Merdon. Long time.
    Senator Capito Many, many years.
    Ms. Merdon. Yes, ma'am.
    Senator Capito. Yes, because you can sort of see where--
but, so thank you for what you are doing and thank you for 
being here today.
    Ms. Merdon. Thank you for your support on this committee 
and the Appropriations, ma'am.
    Senator Capito. Thank you.
    Chairman Blunt. Well, to follow-up on a couple of things 
that have been mentioned already, I would mention to my 
colleagues, Senator Klobuchar and I have sent a letter to the 
Inspector General asking the IG to look at the reports on 
harassment in the AOC and the high percentage of concern we 
have there. Also in the survey, the Federal Employee Viewpoint 
Survey, on a number of issues, it was of concern--the survey in 
2018 was better in all categories than the survey in 2017. But 
in the hiring and promotion area, just continues to remain 
conspicuously low. I think less than, slightly less than half 
of your employees thought that the hiring promotion was 
something that they should not be concerned about. I do not 
know how much of that has to do with Senator Klobuchar's point 
and others that have been made of when you keep bringing people 
back, it certainly makes it hard for the promotion part of that 
to work, as well as you would think it should. That and the 
fact--the pay scales, how many different pay scales there are? 
I am going to have some more detailed questions in writing 
about both of those issues, but they continue to be a concern 
to people.
    [The information referred to was submitted for the record.]
    Chairman Blunt. Now, you know, employee surveys are 
sometimes just that and you have to read some things into them. 
But by comparison, there are more concerns with the AOC on 
these topics than there are in most other places in the Capitol 
Hill community. Let us see if we can figure why that is, and 
what kinds of steps are being taken to do more about that. 
Senator Klobuchar, do you have any questions?
    Senator Klobuchar. Yes. I had one more question. That is--
so, when you answered the question of Senator Cortez Masto, you 
said there were 11 of these. Were those just the permanent 
ones? Does that include----
    Ms. Merdon. Permanent and temporary.
    Senator Klobuchar. Permanent and temporary. There is only 
11 that are getting retirement plus salaries?
    Ms. Merdon. Not all of them get the retirement plus salary. 
There is only 7 out of the 11 that get the retirement plus the 
salary, the rest do not. We will potentially be bringing on 
just a few more during the Senate moves, as we typically do to 
handle the painting, and then are here for a month or two and 
then they leave. We--you know, because they know the buildings. 
They know the agency. We bring them for, you know, very short, 
fast----
    Senator Klobuchar. Do you what in the past--was that about 
average that you had like 10 to 15 or were there more 
sometimes?
    Ms. Merdon. I think it is about 10 to 15. Right now it is 
11, currently today, and 7 do receive the salary and the 
retirement, the rest do not.
    Senator Klobuchar. Maybe you answered this question, but 
positions deemed temporary--did Senator Blunt or anyone ask you 
about this? This says they are exempted from the policies 
described in the AOC's career staffing plan including a 
competitive hiring process. Yet no defying time limit exist for 
temporary positions. This is a little different than the 
annuitance, right?
    Ms. Merdon. Correct.
    Senator Klobuchar. When do you think a temporary position 
should no longer be considered temporary?
    Ms. Merdon. A position that is temporary should no longer 
be considered temporary--it varies. Sometime, if there is a 
skill set that is needed, say, in our construction division--
like a plaster who is very difficult to find in these days, and 
especially due to the market--we may keep that person longer. 
But if it is a temporary person who we do not have the funding 
for or the work for--you know, we always make sure that the 
temporary gets paid for by funds--and it is a skill set that we 
do not need, that person will be, you know, notified for 2 
weeks and then told that their services are not needed anymore.
    Senator Klobuchar. Then how many AOC employees are 
currently considered to be in temporary positions?
    Ms. Merdon. I will need to be able to get back to you on 
the exact number because there are temporary employees in these 
jurisdictions--small numbers--but there are temporary employees 
throughout the agency.
    Senator Klobuchar. Okay. Then finally, the AOC's Career 
Staffing Plan says that the AOC can use supplemental methods to 
reach a diverse pool of potential applicants including posting 
vacancy announcements in newspapers, professional trade 
publications, outreach, how often are these supplemental 
methods utilized?
    Ms. Merdon. I believe almost all the time but I will 
confirm that.
    Senator Klobuchar. Okay.
    Ms. Merdon. We also have a partnership with the Phelps High 
School in DC and we also hire some of the students at that 
architecture, STEM students, in our agency during the 
summertime also.
    Senator Klobuchar. Okay, thank you very much.
    Ms. Merdon. You are welcome, ma'am.
    Chairman Blunt. Just an update on a couple of projects. 
Senator Capito asked about the Russell window project, how far 
behind is that project based on where you would hope to have 
been by this point?
    Ms. Merdon. I will have to get back to you on that, sir. 
Right now, I was very engaged in it over the earlier part of 
the year, with the executives from the contractor. But I will 
ask the Senate Superintendent to provide me an update on that.
    [The information referred to was submitted for the record.]
    Chairman Blunt. I would also like a sense of the additional 
cost because of that overrun of time on scaffolding and other 
things. Was the subcontractor problem there, has that been 
solved? Where the subcontractor could not handle the volume of 
windows that they were being sent?
    Ms. Merdon. Yes, sir.
    Chairman Blunt. How was that solved?
    Ms. Merdon. That was solved by the executives from the 
prime contractor getting involved, replacing some of the 
staff--their own staff on that job--and also working with the 
subcontractor to develop more efficient means to prepare the 
windows for delivery. I think working with our team, 
subcontractor and the contractor--they were able to resolve 
that.
    Chairman Blunt. Okay. I would like to know how far behind 
the original proposed schedule you are?
    Ms. Merdon. Sure.
    Chairman Blunt. What the additional cost has been because 
of the scaffolding rental and all that lasted so much longer, 
at least on one side of building than anybody anticipated. Do 
we feel like we got that solved to the point that it will not 
happen three other times on the three other sides of the 
building that you are going to be working on. On the Russell 
garage, is there a timeline for that?
    Ms. Merdon. We will be able to provide that to you also. 
For the Russell garage----
    Chairman Blunt. Does anybody here with you know what that 
proposed timeline is?
    Ms. Merdon Will be able to provide that?
    Chairman Blunt. Russell garage caucus, do you have----
    Ms. Merdon. It is scheduled to be completed before 
inauguration.
    Chairman Blunt. Before inauguration?
    Ms. Merdon. Yes.
    Chairman Blunt. A little over 2 years. Well, I think--we 
are glad you are here----
    Ms. Merdon. I am glad I am here too.
    Chairman Blunt. Glad we started this conversation. Glad 
that both you and your team know that we are interested and it 
will not be the only one of these oversight hearings we will 
have. But I think Senator Klobuchar and I are both committed to 
have you here. To have the Smithsonian Institute here, to talk 
about what they are doing--to have the Library of Congress 
here. In terms of just impact on our daily life, it is hard to 
find anybody that has more impact on our daily life than those 
areas under your responsibility. I think we can do a better job 
as partners in that. I want to thank you and your colleagues 
for joining us today, as well as my colleagues that were able 
to be here. The record will remain open until Thursday, 
December 13th at 5 p.m. for additional questions for Senators 
to submit. We will get those to you as they come in, and I 
would expect you and your staff to respond to those questions 
by December the 20th. Thank you all and the hearing is 
adjourned.
    Ms. Merdon. Thank you, sir.
    [Whereupon, at 11:51 a.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  

                                  [all]

</pre></body></html>
